                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS


                              CLOSEOUT MEMORANDUM

11   Case Number: A03110061                                           11        Page 1of 1



         This grant1 was selected as part of our proactive review of FY 2001 awards for
         conferences, workshop, and symposia to assess compliance with applicable laws,
         regulations, and award conditions. As part of this review, we requested documents
         from the grantee describing how it dispensed program income, if any was generated.
         Program income was generated and several charges appeared questionable. We
         closed the initial file2 and opened this case to question those charges, which
         included a charge for a banquet (a possible social event) and a charge for workshop
         bags given to the conference attendees. We wrote the grantee and asked for
         explanations and supporting documentation.
         Regarding the social event, the grantee agreed entertainment costs were
         unallowable, but thought program income could be spent on reasonable activities
         for which grant funds were unavailable. We informed the grantee unallowable
         charges were, by definition, not reasonable and program income had to be treated
         with the same restrictions a s federal funds. After a series of delays, the grantee
         then attempted to justify the social event as programmatic in nature. The reasons
         provided were not convincing. Regarding the workshop bags, the grantee said they
         furthered the purpose of the workshop because they provide a means to distribute
         material.
         We concluded the grantee was not able to justify its questionable charges. It
         avoided responding to our requests and delayed our attempts to resolve this matter
         in a timely fashion. The grantee wondered why it had to respond to our questions
         a s it has other, similar Federal awards on which it has not been questioned, and
         against which it evidently charges similar expenses. Therefore, we are referring
         this matter to our Office of Audit with the suggestion all the grantee's NSF awards
         be audited to test if its expenditures are allowable, allocable, and reasonable.
         Accordingly, this case is closed.
